Washington, D.C. 20530

May 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Esmervi Carone Rodriguez v. United States of America,
S.Ct. No. 20-7491
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 12, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 11, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7491
RODRIGUEZ, ESMERVI CARONE
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

